                      U.S. Department of Agriculture

                         Office of Inspector General
                          Financial & IT Operations




            Audit Report
   Food Safety and Inspection Service
Application Controls – Performance Based
            Inspection System




                             Report No. 24501-1-FM
                                    November 2004
                        UNITED STATES DEPARTMENT OF AGRICULTURE

                                   OFFICE OF INSPECTOR GENERAL


                                        Washington D.C. 20250




DATE:          November 24, 2004

REPLY TO
ATTN OF:       24501-1-FM

SUBJECT:       Food Safety and Inspection Service
               Application Controls – Performance Based Inspection System

TO:            Barbara J. Masters
               Acting Administrator
               Food Safety and Inspection Service

ATTN:          Ronald F. Hicks
               Assistant Administrator
               Office of Program Evaluation, Enforcement, and Review


This report presents the results of our audit of application controls in the Food Safety and
Inspection Service’s Performance Based Inspection System (PBIS). The report identifies
additional policies, procedures, and system changes needed to ensure the confidentiality,
integrity, and availability of data entered and stored in PBIS.

Your response to our draft report is included in its entirety as exhibit B, with excerpts
incorporated into the findings and recommendations section of the report. Based on your
October 29, 2004, response, we have reached management decision for Recommendations 2, 3,
5, 7, 8, 9, and 11. Please follow your internal procedures in forwarding documentation of final
action to the Office of the Chief Financial Officer. For Recommendations 1, 4, 6, and 10,
additional actions are needed to reach management decision. Please refer to the OIG Position
section of the report for specific details.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned and the timeframes for implementation of the
outstanding recommendations noted above. Please note that the regulation requires management
decision to be reached on all findings and recommendations within a maximum of 6 months
from report issuance.

The courtesies and cooperation extended to the auditors during our audit are appreciated.

/s/

ROBERT W. YOUNG
Assistant Inspector General
 for Audit
Executive Summary
Food Safety and Inspection Service Application Controls – Performance Based
Inspection System (Audit Report No. 24501-1-FM)

Results in Brief    This report presents the results of our application controls audit of the Food
                    Safety and Inspection Service’s (FSIS) Performance Based Inspection
                    System (PBIS). Our objective was to evaluate whether FSIS had adequate
                    and effective controls over the input, processing, and output of PBIS data.
                    FSIS relies on PBIS to manage its inspection activities; a critical component
                    of its mission to ensure that the nation's commercial supply of meat, poultry,
                    and egg products is safe and wholesome. Overall, we found that FSIS had
                    not implemented adequate controls to ensure the integrity of PBIS data. This
                    ultimately may affect FSIS’ ability to adequately manage its inspection
                    activities and to ensure that the nation's commercial supply of meat, poultry,
                    and egg products is safe and wholesome.

                    FSIS had not established effective physical or logical controls over access to
                    the PBIS data. While FSIS management had established certain controls over
                    access to PBIS data, our review disclosed several physical and logical control
                    weaknesses that, if exploited, could result in (1) fraudulent or malicious data
                    being entered into PBIS, (2) data being removed from PBIS, or (3) data being
                    inappropriately changed in PBIS. FSIS relies on PBIS data to conduct
                    establishment trend analysis, generate alerts of potential food-borne illness
                    outbreaks, and other inspection results analyses. This lack of data integrity
                    could ultimately result in trends in unsanitary conditions in federally
                    inspected establishments not being identified and corrected timely.

                    FSIS personnel had not consistently entered data into the PBIS system. This
                    occurred because FSIS had not established procedures or controls to ensure
                    the data in PBIS was valid. Further, FSIS had not ensured that all field
                    personnel, who are ultimately responsible for data entry, were appropriately
                    trained in how to enter data into PBIS. As a result, there is reduced assurance
                    that FSIS can conduct meaningful analyses using PBIS data to identify trends
                    in unsanitary conditions, or thoroughly rely upon PBIS data to report the
                    accurate operating status of processing establishments.

                    Changes to existing PBIS data can be made without authorization and
                    validation and are not tracked or logged in the event that the original data
                    needs to be recovered. FSIS management relies on field inspectors for all
                    data input and assurance of data integrity. As a result, FSIS management
                    could not be assured that PBIS data is reliable or supportable.

                    FSIS was not using complete or up-to-date PBIS data to prepare management
                    reports and conduct trend analysis. FSIS had not established written policies
                    or controls to ensure that field inspectors synchronized, or replicated, their
USDA/OIG-AUDIT/24501-1-FM                                                                    Page i
                   local systems with the master database on a daily basis. Further, FSIS
                   headquarters personnel prepared management reports from backup PBIS data
                   that was a week old. Due to the distributed nature of the PBIS database, field
                   inspectors were required to use the slow and sometimes inconvenient method
                   of dial-up connections to synchronize their data to the master database. FSIS
                   officials informed us that preparing management reports from the central
                   server database would cause too much activity on the master server. As a
                   result, FSIS’ trend analyses may not accurately reflect true conditions in an
                   establishment and may fail to timely identify a problem establishment.

                   The confidentiality, integrity, and availability of any application depends not
                   only on the controls built into the application itself, but also on the
                   underlying hardware, operating system, and network on which the application
                   resides. Without effective physical and logical controls over network
                   resources and the correction of operating system vulnerabilities, controls
                   written into an application may be circumvented. We found several
                   vulnerabilities in the operating systems used to operate the PBIS system and
                   the firewalls that protect those systems. FSIS management was not vigilant
                   in identifying or correcting network vulnerabilities, and was still in the
                   process of configuring its firewall rules. As a result, the integrity of PBIS
                   data is at risk since these weaknesses may allow the controls built into the
                   PBIS application to be circumvented.

                   Due to the lack of controls noted during our audit, FSIS cannot be assured
                   that PBIS data is complete, accurate, and reliable. As a result, FSIS
                   management may not have the information it needs to effectively manage its
                   inspection activities. Without effective controls over data integrity, the PBIS
                   system may be an unreliable repository that gives FSIS management a false
                   sense that inspection activities are adequately carried out and sanitation of
                   plant operations is accurately reported.

Recommendations
in Brief        We recommend that FSIS:

                   •   Establish access control policies in accordance with Federal guidelines to
                       provide reasonable assurance that access is restricted to only authorized
                       users and that legitimate users have access to only that information
                       needed to perform their job functions.

                   •   Establish a policy and implement controls to provide reasonable
                       assurance that only authorized and allowable data is entered into PBIS
                       and that data used for management reporting is current and reliable.

                   •   Establish a policy and implement controls to (1) limit changes to PBIS
                       data, (2) require adequate justification be maintained when changes are
                       necessary, and (3) require that all changes to PBIS data be logged.
USDA/OIG-AUDIT/24501-1-FM                                                                  Page ii
                  •   FSIS should establish and implement procedures to ensure that all
                      security settings are configured in accordance with departmental
                      guidance, and vigilantly identify and correct network vulnerabilities.

Agency Response

                  FSIS generally agreed with the findings and recommendations in the report.
                  However, FSIS responded that the report infers that inadequate controls over
                  data entry in PBIS could ultimately lead to the occurrence of an outbreak of
                  foodborne illness. FSIS stated that this inaccurately suggests that the
                  Agency’s sole mechanism for enforcing its regulatory authority is
                  accomplished based on information provided by PBIS. FSIS stated that PBIS
                  is just one of a number of data sources that the Agency uses to prompt
                  regulatory action.

OIG Position

                   While the information contained in PBIS is not the only data source FSIS
                   has for prompting regulatory action, it is critical to planning, implementing,
                   and documenting inspection activities. We contend that FSIS should
                   continue to improve the timeliness and accuracy of PBIS data. This will
                   enhance FSIS’ ability to schedule inspections based on the most
                   comprehensive and updated information.

                   We were able to reach management decision on Recommendations 2, 3, 5, 7,
                   8, 9, and 11. Our position on what is needed to reach management decision
                   on Recommendations 1, 4, 6, and 10 is outlined in the findings and
                   recommendations sections of the report.




USDA/OIG-AUDIT/24501-1-FM                                                                Page iii
Abbreviations Used in This Report

DM             Departmental Manual
FSIS           Food Safety and Inspection Service
HACCP          Hazard Analysis and Critical Control Point
ID             Identification
IT             Information Technology
NIST           National Institute of Standards and Technology
NR             Noncompliance Report
OCIO           Office of Chief Information Officer
OIG            Office of Inspector General
OMB            Office of Management and Budget
PBIS           Performance Based Inspection System
SDLC           System Development Life Cycle
TCP/IP         Transmission Control Protocol/Internet Protocol
USDA           U. S. Department of Agriculture




USDA/OIG-AUDIT/24501-1-FM                                        Page iv
Table of Contents
Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iv

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1. Integrity of Data Input .................................................................................................. 3

        Finding 1             Weak Access Controls Jeopardize Data Integrity ................................................... 3
                                  Recommendation No. 1.................................................................................... 7
        Finding 2             Inconsistent Data Entry and Lack of Data Authorization and Validation
                              Impacts PBIS Reliability......................................................................................... 7
                                  Recommendation No. 2.................................................................................. 10
                                  Recommendation No. 3.................................................................................. 11
        Finding 3             Changes to PBIS Data Not Adequately Controlled .............................................. 11
                                  Recommendation No. 4.................................................................................. 13

    Section 2. Data Completeness and Timeliness Critical for Effective Management ................. 14

        Finding 4             PBIS Data Not Complete or Timely ..................................................................... 14
                                 Recommendation No. 5.................................................................................. 15
                                 Recommendation No. 6.................................................................................. 16

    Section 3. General Controls over System Security and Development Need Strengthening... 17

        Finding 5             System Configuration and Vulnerabilities ............................................................ 17
                                  Recommendation No. 7.................................................................................. 18
                                  Recommendation No. 8.................................................................................. 18
        Finding 6             Lack of Security Planning and Segregation of Duties Jeopardizes the
                              Continued Operation of PBIS ............................................................................... 19
                                  Recommendation No. 9.................................................................................. 21
                                  Recommendation No. 10................................................................................ 22
                                  Recommendation No. 11................................................................................ 22

Scope and Methodology........................................................................................................................ 23

Exhibit A – PBIS Application Controls Matrix ................................................................................. 24
Exhibit B – Agency Response............................................................................................................... 26




USDA/OIG-AUDIT/24501-1-FM                                                                                                                  Page v
Background and Objectives
Background        Application controls are the structure, policies, and procedures that apply to
                  separate, individual application systems. An application system is typically a
                  collection or group of individual computer programs that relate to a common
                  function. In the Federal Government, some applications may be complex,
                  comprehensive systems, involving numerous computer programs and
                  organizational units, such as those associated with benefit payment systems.
                  Application controls can encompass both the routines contained within the
                  computer program code, and the policies and procedures associated with user
                  activities, such as manual measures performed by the user to determine that
                  data was processed accurately by the computer.

                  Application controls help make certain that transactions are valid, properly
                  authorized, and completely and accurately processed by the computer. They
                  are commonly categorized into three phases of a processing cycle:

                  •   Input—data are authorized, converted to an automated form, and entered
                      into the application in an accurate, complete, and timely manner.

                  •   Processing—data are properly processed by the computer and files are
                      updated correctly.

                  •   Output—files and reports generated by the application actually occur and
                      accurately reflect the results of processing, and reports are controlled and
                      distributed to the authorized users.

                  In addition, general security controls and automated controls built into the
                  operating system that support the application should also be considered.
                  Weak controls that allow physical or logical access to the computers that
                  store application data could be used to circumvent the controls established
                  within the application itself.

                  The Food Safety and Inspection Service (FSIS) is the public health agency in
                  the U.S. Department of Agriculture (USDA) responsible for ensuring that the
                  nation's commercial supply of meat, poultry, and egg products is safe,
                  wholesome, and correctly labeled and packaged. The Performance Based
                  Inspection System (PBIS) is a software application designed by FSIS to
                  manage its Hazard Analysis and Critical Control Point (HACCP) assignment
                  schedules, inspection procedures, and data reporting. PBIS is designed to use
                  data entered by field inspectors and other district and State personnel, to



USDA/OIG-AUDIT/24501-1-FM                                                                  Page 1
                  create inspection schedules and maintain records of findings for reporting
                  purposes. Further, data entered into PBIS is used by other critical
                  management support systems such as FSIS’ early warning system, which
                  alerts FSIS officials of potential food-borne illness outbreaks.

                  When it was first implemented in 1989, PBIS improved the uniformity and
                  reporting of inspection activities. As the demands on meat and poultry
                  inspection have grown, so have the demands on PBIS. Since its first
                  implementation, PBIS has shifted from a paper-based system of data
                  collection to the paperless system it is today. Using dial-up connections,
                  inspectors receive their procedure schedules. Inspectors are also responsible
                  for inputting their inspection results, also known as “entering feedback,” and
                  transmitting this information to headquarters on a regular basis. This process
                  synchronizes, or replicates, the inspection findings from the local computer
                  used by field inspectors to the PBIS national database, which resides in
                  Washington, D.C. The following diagram explains how data flows within
                  this distributed database:

                                                     Master
                                                    Database
                                                  Washington D.C.
                                                                              District Office
                     Field Inspector                                            Database
                       Computers
                                                                            A high speed line
                    At the inspector’s                                      allows synchronization
                    discretion, a dial-up                                   every 4 hours. It
                    connection is used                                      transfers any changes
                    to connect to the                                       made to records at the
                    master database.                                        district office level,
                    This process                                            and receives new or
                    transfers entered or                                    changed data after any
                    changed data                                            field inspector
                    residing on the local                                   synchronization or
                    database up to the                                      changes made at the
                    master database.                                        National office level.
                    The local database
                    receives an updated
                    inspection schedule
                    and any changes to
                    records made at the
                    district or National
                    office levels.



                  In addition, field inspectors have the ability to enter noncompliance report
                  (NR) records and analyze current and historical inspection results for all
                  plans covered by their assignment.

Objectives        Our objective was to determine whether FSIS had established adequate
                  controls to ensure that data entered into PBIS are properly authorized and
                  completely and accurately processed.
USDA/OIG-AUDIT/24501-1-FM                                                                     Page 2
Findings and Recommendations
Section 1.        Integrity of Data Input

                               Input controls are perhaps the most critical of all application controls. It is
                               this phase of the process that ensures only authorized, accurate, and complete
                               data is entered into the application. Granting access to only authorized
                               personnel, giving personnel only the level of access necessary to perform
                               their job functions, and authorizing data before it is entered are all critical to
                               ensuring the integrity of the data. We found that FSIS did not have effective
                               controls in place to ensure that access to the PBIS system was controlled and
                               that only authorized data and changes to that data were entered. While FSIS
                               had implemented some access controls, those controls were not entirely
                               effective to ensure the integrity of the PBIS data. This ultimately may affect
                               FSIS’ ability to adequately manage its inspection activities and to ensure that
                               the nation's commercial supply of meat, poultry, and egg products is safe and
                               wholesome.


Finding 1                      Weak Access Controls Jeopardize Data Integrity

                               FSIS had not established stringent physical or logical controls over access to
                               PBIS data. This occurred because FSIS had not conducted a thorough risk
                               assessment to identify weaknesses in its access controls. Despite the controls
                               that FSIS had established, our review disclosed several physical and logical
                               control weaknesses that, if exploited, could result in (1) fraudulent or
                               malicious data being entered into PBIS, (2) data being removed from PBIS,
                               or (3) data being inappropriately changed in PBIS. FSIS relies on PBIS data
                               to conduct establishment trend analyses, generate alerts of potential food-
                               borne illness outbreaks, and other inspection result analyses. The lack of data
                               integrity could ultimately result in trends in unsanitary conditions in federally
                               inspected establishments not being identified and corrected timely.

                               The Department1 requires agencies to use individual user identifications (ID)
                               and passwords to control access to systems processing personnel, financial,
                               market-related, or other sensitive data. The Department also requires
                               agencies to remove employee user accounts and passwords when the
                               employee is no longer employed by the agency. Further, the Department2
                               requires that systems be physically controlled and that only authorized users
                               have access. The Office of Management and Budget (OMB) lists individual
                               accountability as a primary mechanism for personnel security.3 It recognizes

1
  Departmental Manual (DM) 3140-1.6, “Management ADP Security Manual,” part 6 of 8, Appendix D, Section 4.a.
2
  DM 3140-1, “Management ADP Security Manual,” Section 14, “Physical Security Standards,” dated July 19, 1984.
3
  OMB Circular A-130, Appendix III, “Security of Federal Automated Information Resources,” dated November 28, 2000.
USDA/OIG-AUDIT/24501-1-FM                                                                                             Page 3
                                   that accountability is normally accomplished by identifying and
                                   authenticating users of the system and subsequently tracing actions on the
                                   system to the user who initiated them. Finally, both the National Institute of
                                   Standards and Technology (NIST)4 and OMB advocate implementation of
                                   the “least privilege” concept, granting users only the access required to
                                   perform their duties.

                                   Access controls over system and application data include both physical and
                                   logical controls and should provide reasonable assurance that computer
                                   resources (data files, application programs, and computer equipment) are
                                   protected against unauthorized modification, disclosure, loss, or impairment.
                                   Physical access controls, such as locked server room doors, ensure that only
                                   authorized personnel can physically handle and perform maintenance on
                                   network servers and other hardware. Logical access controls such as user
                                   names, passwords, and access permissions, ensure that only authorized users
                                   have access to network resources from their workstations, and that users are
                                   granted only the access that is needed to conduct their job responsibilities.

                                   PBIS is a distributed database system. Daily inspection results are entered
                                   into the PBIS database residing on the individual field inspector’s computer.
                                   No dial-up connection to the central PBIS server is required to enter or alter
                                   the information in the inspector’s local computer. At his or her discretion,
                                   the inspector uses a dial-up connection to the central server in Washington,
                                   D.C., to synchronize, or replicate, all new or changed data entered since the
                                   last transmission to the central server.

                                   Given the highly distributed nature of the PBIS application, access controls
                                   over PBIS data and the computers that store the data are FSIS’ first defense
                                   against unauthorized access and modification of inspection data. Without
                                   strong physical and logical access controls over PBIS data input and update
                                   capabilities, the integrity of the application data may be compromised.
                                   Further, with the lack of logging and an audit trail (see Finding No. 3),
                                   neither FSIS management nor the Office of Inspector General (OIG) could
                                   validate whether appropriate changes were made to the PBIS data FSIS uses
                                   for trend analysis and alerts of potential food-borne illnesses.

                                   Restricted to Authorized Users

                                   Our visits to ten establishments in two districts disclosed that FSIS computers
                                   used for PBIS data entry were not physically protected to prevent access by
                                   unauthorized individuals. FSIS had not established written policies on how
                                   employees were to properly safeguard PBIS data. For example, at one
                                   establishment, the computer resided in an office that opened into the
                                   employee break room. While the FSIS office door had been locked after

4
    NIST Special Publication (SP) 800-12, “An Introduction to Computer Security,” dated October 1995.
USDA/OIG-AUDIT/24501-1-FM                                                                                  Page 4
                                  normal business hours, we observed that the door was left unsecured while
                                  the field inspector performed his duties. FSIS personnel would not have
                                  known if establishment personnel had attempted to use the computer to enter,
                                  modify, or delete inspection data during the field inspector’s normal and
                                  routine absences.

                                  While FSIS had established certain controls over PBIS data such as unique
                                  and separate user IDs and passwords for both the computer and the PBIS
                                  system, our observations disclosed that these controls were inadequate to
                                  ensure that data entry was restricted to only authorized users. Specifically,
                                  passwords were not properly safeguarded, and passwords did not meet
                                  established guidelines. At one district office, we found that the PBIS
                                  administrators had their user IDs and passwords taped to the side of their
                                  computer monitor. This note included their user ID and password for both
                                  the computer and the PBIS application.

                                  Additionally, password parameters in PBIS did not always meet departmental
                                  or Office of the Chief Information Officer (OCIO) requirements. FSIS had
                                  not established written password parameter requirements. For example:

                                       •   Password age was set at 180 days from creation to expiration.
                                           Departmental regulations5 state that the maximum life for passwords
                                           on interactive systems, like PBIS, is no more than 90 days.

                                       •   Passwords were set at five characters. Current guidance issued by the
                                           OCIO requires the use of at least eight characters.

                                       •   While the user ID appropriately locked after three unsuccessful
                                           attempts, the lock out duration was only 60 seconds. OCIO guidance
                                           states that the account should be locked “forever,” that is, until
                                           unlocked by a system administrator.

                                       •   FSIS had not maintained online access logs, detailing the user ID and
                                           time of access for each connection to PBIS as required by
                                           departmental regulations.6

                                  Further, we observed inspectors in five different establishments who would
                                  log into the computer and the PBIS application in the morning and remain
                                  logged in all day. Users had not manually logged out of PBIS during
                                  absences from the computer and PBIS did not have a feature to automatically
                                  log the user off for inactivity. As a result, any security protection provided
                                  by the establishment of user IDs and passwords was bypassed. We further


5
    DM 3140-1, Appendix D, paragraph 6b, dated July 19, 1984.
6
    DM 3140-1, Appendix D, paragraph 5, dated July 19, 1984.
USDA/OIG-AUDIT/24501-1-FM                                                                                Page 5
                  observed that password-protected screen savers on the systems that store
                  PBIS data did not activate or allowed excessive time to lapse before locking
                  access to the computer.

                  FSIS management further informed us that one additional control they
                  established was that the dial-up connections, used to transfer inspection data
                  to the main server, automatically timed-out after a short period of inactivity.
                  While our tests confirmed that dial-up time-out settings were not consistently
                  set and in some cases not set at all, this control is not effective in ensuring
                  data integrity. Given the distributed nature of the PBIS data, access to the
                  dial-up connection and central server would not be necessary to enter
                  fraudulent or malicious information into the data stream. Simply entering or
                  altering information on the field inspector’s computer would be sufficient for
                  the information to be entered or modified, ultimately jeopardizing the
                  integrity of the master PBIS database.

                  Restricted to Authorized Purposes

                  PBIS had not properly restricted authorized users as to what data they could
                  enter. Specifically, we found that PBIS users were segregated into six user
                  levels; consolidated, district, circuit supervisor, relief inspector, in-plant
                  inspector, and compliance personnel. According to FSIS management, each
                  user level had a different functionality in each input screen of PBIS. For
                  example, the “in-plant inspector” level was locked out of the “Applicant” tab
                  so those users could not change an establishment’s name or grant date.
                  Further, each computer used to access PBIS was limited in what
                  establishment data could be accessed, limiting employees’ ability to access
                  inspection data pertaining to establishments not under their control.

                  While we agree that these were good first steps in controlling inappropriate
                  access, these controls were not adequate by themselves. Our review of the
                  user levels for individuals in district offices disclosed that all employees in
                  the district office, from secretaries to managers, had the same user level
                  associated with their user ID and had the same access authorizations in PBIS.
                  For instance, in one district office we visited, only two individuals had the
                  job responsibility of resetting passwords for all district personnel; however,
                  all employees in that office had the ability to reset any district office
                  employee’s password. In addition, one district office employee who required
                  read-only access had the ability to enter, delete, and alter information in
                  PBIS.




USDA/OIG-AUDIT/24501-1-FM                                                                 Page 6
Recommendation No. 1

                  Establish policies and implement stronger controls, in accordance with
                  departmental and Federal guidelines, in PBIS and the systems on which PBIS
                  data reside to ensure that access is restricted to only authorized users and that
                  legitimate users have access to only that information needed to perform their
                  job functions.

                  Agency Response. FSIS has fully deployed Windows XP on all Federal
                  inspectors’ computers. Access requirements on computers with Windows XP
                  meet departmental guidelines for password aging, length, etc. Several of the
                  computers in the field that the OIG examined contained the Windows 95
                  operating system, which was not as secure as XP. Additionally, FSIS
                  implemented mandatory online security awareness training for all users of
                  computers. This training provides specific guidance on system security
                  vulnerabilities, including methods for safeguarding passwords. Employees
                  were required to complete the security awareness training by October 25,
                  2004.

                  Additionally, FSIS will develop a written policy on PBIS access control to
                  limit and restrict access to PBIS data to only authorized users. The access
                  control policy will ensure that guidance is provided on safeguarding
                  passwords and that passwords meet departmental requirements. FSIS will
                  issue this policy by January 2005.

                  OIG Position. We concur with FSIS’ actions to upgrade user systems,
                  establish formal access control policies, and provide users security awareness
                  training; however, we reported access controls throughout the PBIS system,
                  not just with user workstations. For instance, the PBIS application contained
                  only a few user categories (i.e., profiles) that did not sufficiently limit users’
                  abilities to access and update data consistent with their job responsibilities.
                  In order to reach management decision FSIS needs to provide us timeframes
                  for reviewing access controls throughout the PBIS infrastructure and ensure
                  that adequate controls are put in place to limit access to PBIS data in
                  accordance with NIST and departmental policy and the least privilege
                  principle.


Finding 2         Inconsistent Data Entry and Lack of Data Authorization and
                  Validation Impacts PBIS Reliability

                  FSIS personnel had not consistently entered data into the PBIS system. This
                  occurred because FSIS had not established formal policies or procedures on
                  how data should be entered, or ensured that all field personnel, who are

USDA/OIG-AUDIT/24501-1-FM                                                                    Page 7
                                 ultimately responsible for data entry, were appropriately trained in how to
                                 enter data into PBIS. Further, FSIS relied heavily on field inspectors to
                                 ensure the validity of the data entered into PBIS, which is used by FSIS
                                 management to manage their HACCP program. As a result, FSIS may not be
                                 able to conduct meaningful analysis to identify trends in unsanitary
                                 conditions or respond to PBIS data to report on the accurate operating status
                                 of processing establishments.

                                 The Department7 requires agencies to build application controls to prevent
                                 unauthorized access to data files; design and write applications to compare
                                 input controls with data, ensure the correct selection of files and validation of
                                 data, and protect the records associated with automated decision-making
                                 applications. In addition, NIST8 requires that data be validated during
                                 collection and entry prior to use by the system.

                                 Inconsistency in Data Entry

                                 We observed that data entered into PBIS varied widely among the numerous
                                 field inspectors we visited. FSIS had not established formal policies on how
                                 data needs to be entered into PBIS. Further, numerous FSIS personnel
                                 informed us (and a lack of training documentation confirmed) that field
                                 inspectors and field supervisors had not been adequately trained on using
                                 PBIS. As a result, trend analyses and sanitation alerts based on PBIS data
                                 may be unreliable.

                                 When FSIS field inspectors identify an unsanitary condition or other issue of
                                 noncompliance, the field inspector is required to enter the noncompliance in
                                 PBIS, creating a NR. Once finalized, the NR data is locked in PBIS to
                                 prevent changes. The NR should then be printed out and provided to the
                                 establishment management for their signature and a description of what
                                 corrective action they are taking to correct the problem and prevent
                                 recurrence. According to FSIS procedures, once the corrective actions have
                                 been completed, the NR should then be flagged as closed in PBIS.

                                 However, during our visits to 10 processing establishments, we observed that
                                 FSIS inspectors exercised their judgment on when to lock and close NR
                                 records.9 While most inspectors we visited locked NR records appropriately,
                                 one field inspector had never locked an NR record until we brought this to
                                 the attention of the field supervisor and district office personnel. Since the
                                 inspector had never closed an NR, the establishment management had signed

7
  DM 3140-1, “Management ADP Security Manual,” Section 17, “Application System Development,” dated July 19, 1984.
8
  National Bureau of Standards (predecessor agency to NIST) Federal Information Processing Standards Publication 73, “Guidelines for
Security of Computer Applications,” dated June 30, 1980. The Federal Information Security Management Act of 2002 gives NIST the
authority to establish security requirements for Federal information systems.
9
  FSIS has programmed PBIS to flag NR records as ‘final’ which effectively locks the record to prevent changes. Once the establishment
addresses the unsanitary conditions that were noted in the NR, the NR record is flagged as ‘closed.’
USDA/OIG-AUDIT/24501-1-FM                                                                                                    Page 8
                  draft, not final, NR reports. The inspector informed us that he was never
                  informed that he had to finalize, or lock, the NR. According to FSIS
                  procedures, FSIS could not use draft NR reports as a justification for
                  suspending inspection activities for unsanitary conditions.

                  We observed that FSIS inspectors’ processes were even less consistent when
                  it came to closing an NR record. We found instances where field inspectors
                  closed NR records:

                     •   When the NR was presented to or signed by establishment
                         management even if no action was taken to correct the deficiency;

                     •   only after the immediate cause of adulteration or contamination was
                         eliminated, even if long-term preventative corrective action agreed to
                         by the establishment had not yet been implemented; or

                     •   after all immediate and long-term corrective actions had been taken.

                  FSIS’ procedures recognize that the timeliness of corrective actions to
                  noncompliance issues is an indication of whether continued adulteration or
                  contamination may recur. Due to the inconsistent data entry, FSIS
                  management would not have been able to use the NR record closed date
                  recorded in PBIS to accurately evaluate whether processing establishments
                  had made corrections to sanitation problems in a timely manner.

                  We also evaluated FSIS’ controls over suspending inspection activities.
                  Inspectors used the PBIS “suspend” code to indicate that the mandatory
                  inspections were being temporarily suspended due to custom slaughter or if a
                  processing line was down for repair or upgrade, resulting in no inspections
                  being scheduled by PBIS. However, other inspectors used the “suspend”
                  code to indicate that FSIS inspectors were being withdrawn from the
                  establishment due to the conditions in the plant and establishment’s
                  continued ineffective corrective actions. Therefore, FSIS management may
                  not be able to rely on PBIS data to accurately report those establishments that
                  had inspection activities suspended due to sanitation violations.

                  We attribute the inconsistent data entry, in part, to FSIS not having provided
                  effective training to field inspectors. We found that only 1 of the 12 field
                  inspectors and field supervisors we interviewed had received training. One
                  inspector indicated that the extent of the training received included only how
                  to turn on the computer, start the program, and enter the user ID and
                  password. Another field inspector received an automated tutorial that she
                  was never required to complete. The remaining 10 field inspectors and field
                  supervisors indicated that they were simply provided with the application, a
                  user’s manual, and a computer.

USDA/OIG-AUDIT/24501-1-FM                                                                 Page 9
                  The lack of consistent coding of NR records and suspended establishments
                  reduces the effectiveness of FSIS’ analysis of PBIS data.

                  Lack of Authorization or Second Party Review

                  FSIS had not implemented adequate controls to ensure that only authorized
                  and complete data was entered and maintained in the PBIS system. FSIS
                  officials relied on field inspectors to ensure that only authorized data was
                  entered into the system, and therefore have not implemented controls over the
                  authorization of data or second-party review process. This condition is more
                  critical considering the weak access control issues we identified in Finding
                  No. 1. As a result, FSIS management cannot ensure that only complete and
                  accurate data is being used to manage its inspection activities.

                  Historically, FSIS maintained paper documents as evidence of its inspection
                  activities. These paper documents were ultimately entered into the system
                  and served as a supporting basis for the data that was entered. If necessary,
                  FSIS could use the documents to verify that the data entered into the system
                  was accurate and complete by performing reconciliations or verifications
                  between system data and paper documents. In paperless applications, like the
                  current version of PBIS, controls such as those noted throughout this report
                  need to be established to ensure the integrity of the data entered into the
                  system.

                  FSIS officials informed us that field supervisors ensure that the inspection
                  activities are conducted properly and that inspection results are entered into
                  PBIS by conducting site visits to inspectors in their circuit. However, the
                  frequencies of field supervisor visits to inspectors varied widely by
                  supervisor and circuit, ranging from one visit a month to one visit a quarter.
                  Because PBIS is a paperless system, it is impractical for supervisors to verify
                  the accuracy of inspection reports during their visits.

                  Field inspectors are solely responsible for gathering and entering the results
                  of their inspections without supervisory or independent review or approval.
                  Further, FSIS is not conducting reconciliations of the data with expected
                  results. Once the information is entered, PBIS accepts and processes all
                  inspection results entered, using the data for trend analyses and indications of
                  potential outbreaks of food-borne illnesses.

Recommendation No. 2

                  Establish a policy on how data is to be entered into PBIS, and implement
                  controls to ensure that all PBIS users are provided adequate training on how
                  to enter and control data in the PBIS database.

USDA/OIG-AUDIT/24501-1-FM                                                                 Page 10
Recommendation No. 3

                                Establish a policy and implement controls to provide reasonable
                                assurance that only authorized and allowable data is entered into PBIS.

                                Agency Response. To bolster the users’ understanding of entering data
                                into PBIS, FSIS will issue a policy that provides instructions on when certain
                                inspection information should be entered into the system. Also, FSIS plans
                                to integrate the PBIS user’s guide as an online reference guide to further
                                assist the users. In its release of PBIS version 5.1, the online help capability
                                will assist inspection personnel in understanding how information should be
                                entered into the system. In addition, FSIS’ Center for Learning will
                                coordinate with the Office of Field Operations and the Chief Information
                                Officer to provide PBIS 5.1 training.

                                FSIS expects to release PBIS version 5.1 by January 2005. FSIS will issue
                                its policy document by March 2005.

                                OIG Position. We concur with FSIS’ management decision on these
                                recommendations.


 Finding 3                      Changes to PBIS Data Not Adequately Controlled

                                Changes to existing PBIS data can be made without authorization and
                                validation. FSIS management relies on field inspectors for all data input and
                                assurance of data integrity. FSIS had not implemented automated controls to
                                ensure that changes made to PBIS data were tracked and logged. As a result,
                                FSIS management could not be assured that PBIS data is reliable or
                                supportable.

                                NIST10 requires that data be validated during collection and entry. NIST
                                further recognizes that the process of correcting errors in data is prone to
                                contribute further errors and should be validated throughout the process. In a
                                prior audit,11 we reported that FSIS had not implemented a formal process for
                                its database administrators to follow when making changes to the various
                                databases maintained by its headquarters staff. We also found that numerous
                                individuals had database administrative authority. In its response, FSIS




10
   National Bureau of Standards (predecessor agency to NIST) Federal Information Processing Standards Publication 73, “Guidelines for
Security of Computer Applications,” dated June 30, 1980.
11
   Audit Report No. 24099-1-FM, “Security Over the Information Technology Resources at the Food Safety and Inspection Service,”
dated August 11, 2003.
USDA/OIG-AUDIT/24501-1-FM                                                                                                  Page 11
                                     stated that it had created a Change Control Board to oversee system changes,
                                     and would review the access levels of those individuals with administrative
                                     access to its databases.

                                     At the 10 establishments visited, we observed that anyone with access to the
                                     field inspector’s local computer could change inspection data, regardless of
                                     who entered the data. For example, the field supervisor could change the
                                     results of inspections for establishments in his or her circuit, even if the field
                                     inspector entered the results. Additionally, FSIS did not program PBIS to
                                     maintain a justification for why the change was made. Further, the updated
                                     data overwrites the original on the local computer, and is replicated to the
                                     master database in Washington, D.C., the next time synchronization12 takes
                                     place.

                                     Discussions with field supervisors disclosed that changes had been routinely
                                     made to the data originally entered by the field inspectors. This occurred
                                     despite the fact, as mentioned in Finding No. 2, that paper evidence of
                                     inspections is not maintained to validate the accuracy of changes. Further,
                                     the field supervisors did not have documentary evidence that the changes
                                     were necessary. One field supervisor informed us that he had accidentally
                                     over written the results of his subordinates’ inspection activities on more than
                                     one occasion. We were unable to verify whether data was missing due to
                                     accidental deletion because (1) the lack of original source documents and (2)
                                     the lack of built-in controls to prevent or detect accidental modification or
                                     deletion of data.

                                     For NR records that had been locked (see Finding No. 2), PBIS required an
                                     unlock code to make changes. Field inspectors and field supervisors are
                                     required to contact the district office to obtain an unlock code. However, we
                                     found that the district office personnel who issued the unlock codes did not
                                     ask for a justification or documentation of the changes. In addition, logs of
                                     the unlock codes were not maintained.

                                     Finally, there were ineffective controls established to confirm or validate
                                     changes to NR records before being uploaded to the master database. The
                                     PBIS administrative assistants at the two district offices we visited informed
                                     us that they confirmed that changes were made to unlocked NR records, but
                                     they did not substantiate whether or not the change was appropriate or
                                     accurate. Additionally, the PBIS central server will accept and process the
                                     data regardless of whether the district office had confirmed the change.




12
     Synchronization is the process where data stored on the local field inspector’s computer is uploaded, or copied, to the master server.
USDA/OIG-AUDIT/24501-1-FM                                                                                                           Page 12
Recommendation No. 4

                  Establish a policy and implement controls to (1) limit changes to PBIS data,
                  (2) require adequate justification be maintained when changes are necessary,
                  and (3) require that all changes to PBIS data be logged.

                  Agency Response. Information in PBIS can be generally categorized as
                  incidents and profiles. Incidents describe events occurring at a discrete point
                  in time, for example, inspections, noncompliance reports, etc. All these occur
                  daily throughout FSIS. On the other hand, profile data is more static in
                  nature and is not based on time or an event. Examples include Establishment
                  Profiles, Circuit structure, District Staffing information, etc. While the
                  information can (and does) change periodically, it’s not usually changing
                  daily. FSIS has established an information technology (IT) work group that
                  is exploring the need for locking certain types of data in the system based on
                  the classification of the information as either an incident or profile type.

                  Currently, PBIS maintains a transaction history log that tracks changes made
                  in the system, and the users who made them. Enclosure 1 contains a
                  transaction history report for the period October 17-22, 2004.

                  OIG Position. We agree that data in PBIS is subject to periodic and
                  necessary change. However, we observed several instances where data in
                  PBIS was changed without justification, without second party review, or
                  without being adequately tracked in the event that a change was made
                  inappropriately. If FSIS maintained paper documentation to support and
                  verify changes made in the database, these controls may not be needed;
                  however, the paperless environment in which PBIS data is entered requires
                  more stringent controls to ensure the appropriateness of changes. To reach
                  management decision, FSIS needs to provide us its plan and timeframes for
                  reviewing how PBIS changes will be limited, justified, and thoroughly
                  logged.




USDA/OIG-AUDIT/24501-1-FM                                                                Page 13
Section 2. Data Completeness and Timeliness Critical for Effective Management




Finding 4                       PBIS Data Not Complete or Timely

                                FSIS was not using complete, or the available up-to-date PBIS data to
                                conduct trend analyses. This occurred because field inspectors were not
                                required to synchronize their local systems with the master database on a
                                daily basis. Further, FSIS Headquarters personnel prepared management
                                reports from backup PBIS data that was a week old. Field inspectors did not
                                synchronize due to the slow and sometime inconvenient process of using
                                dial-up access to the central server. FSIS officials informed us that preparing
                                management reports from the central server database would cause too much
                                activity on the master server. As a result, FSIS’ analytical procedures may
                                not accurately reflect true conditions in an establishment and may fail to
                                timely identify a problem establishment.

                                NIST13 requires that data be validated during collection and entry prior to use
                                by the system to ensure data is accurate, complete, consistent, unambiguous,
                                and reasonable. Validation checks play a significant role in ensuring that
                                data is complete.

                                After completing an inspection, field inspectors enter the results into the
                                database residing on their local computers. The data resides on that local
                                computer until the field inspector manually selects the PBIS feature to
                                synchronize (replicate) any new and updated data from the local computer to
                                the central PBIS server in Washington, D.C. This central PBIS server is used
                                to alert FSIS officials at both the national and district level of potentially
                                serious sanitation trends, and is used by FSIS officials to conduct trend
                                analyses on inspection results. Without complete and up-to-date inspection
                                results, these projections and trend analyses are based on incomplete results
                                and may not accurately reflect the conditions in an establishment and may
                                fail to identify a problem establishment. The timeliness and completeness of
                                PBIS data is critical to the effective management of FSIS inspection
                                activities.

                                Data Synchronization

                                PBIS maintains the last synchronization date for every registered computer.
                                Our review of all 3,660 computers registered in PBIS on March 19, 2004,
                                disclosed that 1,072 (29 percent) had not synchronized within at least 3 days

13
  National Bureau of Standards (predecessor agency to NIST) Federal Information Processing Standards Publication 73, “Guidelines for
Security of Computer Applications,” dated June 30, 1980.
USDA/OIG-AUDIT/24501-1-FM                                                                                                 Page 14
                  from the date of our analysis. Of those, 623 (17 percent) had not
                  synchronized for 7 days or more. Therefore, FSIS was using incomplete data
                  to identify sanitation trends and manage its inspection activities.

                  FSIS Headquarters personnel monitor PBIS reports that show computers that
                  have not synchronized in 45 days. Our review of one such report, dated
                  February 27, 2004, disclosed that there were 63 computers, of which only 7
                  (11 percent) synchronized when the user was informed that they needed to
                  synchronize. FSIS is supposed to remove systems from PBIS if they do not
                  synchronize timely. However, we found that three computers were not
                  eliminated from PBIS even though they appeared on this listing, and two
                  computers appeared on two subsequent reports. Additionally, FSIS has no
                  formal policy dictating how often the field inspectors should be
                  synchronizing with the central server. Further, while reports are available in
                  PBIS for district office managers to monitor synchronization, there is no
                  formal requirement to run this report or instructions on what followup actions
                  need to be taken.

                  Database Record Serial Numbers Not Tracked During Data Synchronization

                  In addition to the lack of controls requiring field inspectors to synchronize
                  their local data with the PBIS master database, PBIS lacked adequate controls
                  to ensure that complete synchronization occurs. Each database record in
                  PBIS is assigned a unique serial number. FSIS officials informed us that the
                  main purpose of this number was intended to ensure that duplicate data is not
                  entered into the master database and that the data is complete. However,
                  PBIS did not have an automated process to verify that all database record
                  serial numbers are accounted for during processing.

                  For instance, a field inspector could delete a record in their local database
                  prior to synchronizing with the master database. Instead of maintaining a
                  record that the database record once existed, PBIS simply removes the
                  database record from the database. When field inspectors synchronized their
                  local database with the master PBIS database, PBIS did not provide a
                  warning message or produce an error report signaling the missing number in
                  the sequence. As a result, FSIS has limited assurance that all data transmitted
                  was appropriately synchronized from the local computer into the central
                  server.

Recommendation No. 5

                  Implement a policy and establish controls to ensure that field inspectors
                  synchronize inspection results daily and that all database records are
                  accounted for during synchronization.



USDA/OIG-AUDIT/24501-1-FM                                                                Page 15
Recommendation No. 6

                  Implement a policy and establish controls to ensure that management reports
                  and data analyses are generated from the most up-to-date data available.

                  Agency Response. FSIS is able to utilize data effectively from PBIS
                  when the database is synchronized less frequently than daily. Guidance has
                  been provided in the PBIS users’ guide for inspection program personnel to
                  conduct daily synchronization. FSIS will determine whether the guidance
                  provided in the PBIS users’ guide should be updated. FSIS will issue a
                  policy and update the PBIS user’s guide, if necessary, establishing the time
                  requirements for synchronization.

                  FSIS will issue a policy on time requirements for PBIS synchronization by
                  March 2005.

                  OIG Position.    We concur with FSIS’ management decision on
                  Recommendation No. 5.

                  Recommendation No. 6 also addressed FSIS’ process of producing
                  management reports using the PBIS backup server, which is typically 2
                  weeks behind the live data. This time lag, in addition to the synchronization
                  issues addressed in Recommendation No. 5, raise questions about the
                  timeliness and reliability of the data on management reports. In order to
                  reach management decision, FSIS needs to provide us with its plan and
                  timeframes for reviewing the timeliness and reliability of PBIS management
                  reports in performing its mission and taking any necessary actions resulting
                  from its review.




USDA/OIG-AUDIT/24501-1-FM                                                              Page 16
Section 3.           General Controls over System Security and Development Need
                     Strengthening

                                   The confidentiality, integrity, and availability of any application depends not
                                   only on the controls built into the application itself, but also on the
                                   underlying hardware, operating system, and network on which the application
                                   resides. Without effective physical and logical controls over network
                                   resources and correcting operating system vulnerabilities, controls written
                                   into an application may be circumvented.




Finding 5                         System Configuration and Vulnerabilities

                                   We found several vulnerabilities in the operating systems used to operate the
                                   PBIS system and the firewalls that protect those systems. FSIS management
                                   was not vigilant in identifying or correcting network vulnerabilities, and was
                                   still in the process of configuring its firewall rules. As a result, the integrity
                                   of PBIS data is at risk since these weaknesses may allow the controls built
                                   into the PBIS application to be circumvented.

                                   OMB Circular A-130 requires agencies to assess the vulnerability of
                                   information system assets, identify threats, quantify the potential losses from
                                   threat realization, and develop countermeasures to eliminate or reduce the
                                   threat or amount of potential loss. Further, the Department OCIO has
                                   established a policy14 that requires agencies regularly scan their systems for
                                   known vulnerabilities using a Department-purchased vulnerability scanning
                                   tool. Finally, NIST has published guidelines on the effective implementation
                                   of firewalls in Federal agency network environments.15

                                   Transmission Control Protocol/Internet Protocol (TCP/IP) Vulnerabilities

                                   We used a commercially available software tool that identifies vulnerabilities
                                   in network components that use the TCP/IP protocol (the protocol used on
                                   the public Internet). We found that FSIS had been using the same
                                   vulnerability assessment tool to periodically scan its network and correct
                                   vulnerabilities identified. We also found few vulnerabilities on FSIS’
                                   network routers and switches, which indicates adequate configuration
                                   management over those devices.

                                   Our assessment, however, discovered a number of vulnerabilities on the
                                   server that FSIS uses as a backup server and the two state servers we

14
     “Cyber Security Manual,” DM 3500-2, Chapter 6, Part 1, dated April 4, 2003.
15
     NIST SP 800-41, “Guidelines on Firewalls and Firewall Policy,” dated January 2002.
USDA/OIG-AUDIT/24501-1-FM                                                                                   Page 17
                                  scanned. FSIS had not conducted scans of these systems as vigorously as
                                  they did on the main PBIS database server. One of the most vulnerable
                                  weaknesses on the systems we scanned was the ability to easily identify user
                                  IDs on those systems. This vulnerability provides a malicious user the
                                  information needed to conduct a brute force password attack and gain entry
                                  into those systems and potentially the entire network.

                                  Firewall Rules

                                  FSIS had not maintained its firewall in accordance with departmental16 and
                                  NIST guidelines.17 FSIS was still in the process of configuring its firewall
                                  rules when we performed our review. We found that FSIS had incorrectly
                                  entered firewall rules giving thousands of IP addresses the ability to pass
                                  through the firewall. Our analysis of FSIS’ firewall rules also revealed that
                                  several rules were either no longer needed, were redundant, or were not
                                  configured in the best interest of network security. For example, we found
                                  rules that allowed certain access using unsecured TCP/IP protocols to all
                                  systems behind the firewall rather than limiting that access to only certain
                                  systems.

Recommendation No. 7

                                  FSIS should establish and implement procedures to ensure that all operating
                                  systems are configured in accordance with departmental guidance and
                                  vigilantly identify and fix TCP/IP vulnerabilities on all of its systems and
                                  network devices.

                                  Agency Response. FSIS will establish and implement procedures to
                                  ensure that all operating systems are configured in accordance with
                                  departmental guidance and identify and fix TCP/IP vulnerabilities on all of
                                  it’s systems and network devices. FSIS will establish procedures by April
                                  2005.

                                  OIG Position. We concur with FSIS’ management decision on this
                                  recommendation.

Recommendation No. 8

                                  FSIS should establish and implement procedures to ensure that its firewall
                                  configuration is configured and maintained in accordance with NIST
                                  guidance.



16
     USDA OCIO Cyber Security Policy CS-012, “Gateway and Firewall Technical Security Standards,” dated January 18, 2002.
17
     NIST SP 800-41, “Guidelines on Firewalls and Firewall Policy,” dated January 2002, page 47/74.
USDA/OIG-AUDIT/24501-1-FM                                                                                                   Page 18
                               Agency Response. FSIS will establish and implement procedures to
                               ensure that its firewall configuration is configured and maintained in
                               accordance with NIST guidance. FSIS will establish firewall procedures by
                               April 2005.

                               OIG Position. We concur with FSIS’ management decision on this
                               recommendation.


Finding 6                     Lack of Security Planning and Segregation of Duties Jeopardizes
                              the Continued Operation of PBIS

                               FSIS had not documented the PBIS system and had not established adequate
                               segregation of duties regarding system development. Despite departmental
                               requirements to document major applications during the system development
                               cycle, FSIS officials informed us that they did not document their system due
                               to other priorities. FSIS officials informed us that it was more important to
                               get the application operational than it was to document its processes. As a
                               result, FSIS cannot ensure that the PBIS system will continue to operate in
                               the event of a disaster, major service disruption, or staff turnover. Further,
                               without controls over system development, FSIS could not ensure the
                               integrity of the PBIS data used to manage its inspection activities, conduct
                               trend analysis, and alert FSIS management and consumers of potential
                               sanitation violations.

                               The foundation for security over IT resources is found in OMB Circular
                               A-130, Appendix III, “Security of Federal Automated Information
                               Resources.” This Circular establishes a minimum set of controls for
                               agencies’ automated information security programs, including certifying to
                               the security of any systems that maintain sensitive data, establishing
                               contingency plans and recovery procedures in the event of a disaster, and
                               establishing a comprehensive security plan. Further, DM 3140-1 requires
                               that documentation be prepared and maintained throughout the entire system
                               development lifecycle. Finally, Federal Information Processing Standards
                               Publication 73 provides guidance for separation of system development,
                               testing, and daily operation functions.

                               Lack of System Security Planning

                               FSIS has not prepared security plans, risk assessments, or disaster recovery
                               plans for the PBIS system as required by departmental regulations, OMB A-
                               130, and NIST. In a prior audit,18 we reported that FSIS had not prepared

18
  Audit Report No. 24099-1-FM, “Security Over the Information Technology Resources at the Food Safety and Inspection Service,”
dated August 11, 2003.
USDA/OIG-AUDIT/24501-1-FM                                                                                           Page 19
                  security plans for its major applications and general support systems or
                  ensured that its major applications were certified and accredited. The
                  certification and accreditation process helps ensure that adequate security
                  planning and operational guidelines and procedures are in place and
                  operating effectively. In response to that audit, FSIS informed us that it
                  would have all its major applications certified and accredited by June 2003;
                  however, FSIS had only just begun this process during our fieldwork in early
                  calendar year 2004.

                  OMB Circular A-130 states that all major applications and general support
                  systems containing sensitive information require protection to assure its
                  integrity, availability, or confidentiality; and therefore, require security plans.
                  Security plans should define who has responsibility for system security, who
                  has authority to access the system, appropriate limits on interconnectivity
                  with other systems, and security training for individuals authorized to use the
                  system. Without security plans in place, FSIS is ill prepared to establish
                  effective and comprehensive security over its systems and networks.

                  Risk assessments, as defined by NIST, are a systematic approach to assessing
                  the vulnerability of information system assets; identifying threats, quantifying
                  the potential losses from threat realization; and developing countermeasures
                  to eliminate or reduce the threat or amount of potential loss. Until these risk
                  assessments are completed, FSIS cannot be reasonably assured that all the
                  risks attributable to PBIS have been considered and that appropriate steps
                  have been taken to mitigate these risks. In our opinion, many of the risks
                  associated with the PBIS system mentioned in this report would have been
                  identified had a formal risk assessment been conducted.

                  We also found that FSIS is not fully prepared to respond in the event of a
                  disaster or major disruption, and cannot be assured that vital PBIS data
                  needed to support the management of its inspection program will be available
                  without excessive disruption. One of the most critical weaknesses we found
                  was that FSIS stores its master database server and two other servers that
                  contained backup PBIS data in the same room. Further, FSIS does not
                  backup the master server on tape or other portable media and have the media
                  sent offsite in the event of a disaster or major disruption. FSIS officials were
                  not concerned with these issues because every district office synchronizes
                  with the master database every 4 hours. FSIS officials informed us that the
                  worst-case scenario would be that they would have to recreate the master
                  database from the district office data. If this occurred, FSIS could lose up to
                  4 hours of data from every district, thereby causing its analysis of PBIS data
                  to be incomplete and inaccurate.

                  During our fieldwork, FSIS had begun to certify and accredit its major
                  applications. FSIS had prepared a statement of work to begin this process,

USDA/OIG-AUDIT/24501-1-FM                                                                   Page 20
                  which would include conducting a risk assessment, preparing security plans,
                  and establishing a disaster recovery plan.

                  Inadequate Segregation of Duties Over System Development and
                  Maintenance

                  In Finding No. 1, we reported that FSIS had not programmed PBIS to
                  effectively limit access by employees to only the data and access capabilities
                  needed to perform their job duties. In addition, FSIS had not established
                  segregation of duties controls over system development and maintenance.
                  FSIS had one person in charge of developing, programming, testing the PBIS
                  system, and moving tested code into the production environment. Each of
                  these functions should be separated to ensure that only authorized changes
                  are made to applications, that the application is fully tested, and that only
                  approved and tested code enter the production environment. In addition the
                  one FSIS employee also had complete control to add, delete, and modify any
                  production information in the PBIS master database.

Recommendation No. 9

                  FSIS should document the application, data flow, and data elements of the
                  PBIS system to provide the foundation of operational and security planning,
                  and ensure the continual operation of the system in the event of a disruption
                  of service or turnover in staff.

                  Agency Response. FSIS agrees that system documentation to assure the
                  continuity of operation of the PBIS is important. FSIS will follow the
                  Department’s standard System Development Life Cycle (SDLC) process for
                  documenting its information systems. A standard SDLC, in accordance with
                  Department requirements, will be adopted for all new major system
                  development and modifications. FSIS will utilize a contractor to document
                  the SDLC currently being used. The SDLC will be used on all new major
                  system development and modifications. The SDLC will include a security
                  study, feasibility study, requirements study, requirements definition, detailed
                  design, programming, testing, installation, and post implementation review.
                  A contract to document the SDLC for all new major systems and
                  modifications will be awarded by November 2004.

                  In the meantime, documentation of PBIS version 5.1 will be completed by
                  September 2005 to address a similar issue identified in the certification and
                  accreditation process and scheduled in FSIS’ mitigation plan.

                  OIG Position. We concur with FSIS’ management decision on this
                  recommendation.



USDA/OIG-AUDIT/24501-1-FM                                                                Page 21
Recommendation No. 10

                  FSIS should establish controls to ensure that the current certification and
                  accreditation process is performed on a 3-year basis and that security
                  planning documents remain up-to-date as required by OMB.

                  Agency Response. FSIS included, in its annual budget request, funding
                  to provide for performing the certification and accreditation process on a 3-
                  year basis as required by OMB.

                  OIG Position. We concur with FSIS’ plans to request funding to conduct
                  certification and accreditation as required by OMB A-130. However, in
                  order to reach management decision, FSIS needs to provide us its timeframes
                  for establishing a formal policy and implementing controls for ensuring that
                  the certification and accreditation process is actually performed as required
                  by OMB throughout all of its systems’ life cycles.

Recommendation No. 11

                  Establish a policy and implement controls to ensure the proper segregation of
                  duties over the PBIS system development, testing, and production
                  environments.

                  Agency Response. FSIS is currently reorganizing the IT structure to
                  segregate duties and responsibilities. The reorganized structure will ensure
                  the separation of functions such as system development, testing,
                  implementation, and configuration management. The reorganization is
                  expected to be completed by January 2005.


                  OIG Position. We concur with FSIS’ management decision on this
                  recommendation.




USDA/OIG-AUDIT/24501-1-FM                                                              Page 22
Scope and Methodology
                  Our audit was part of a nationwide audit of selected USDA agencies. We
                  reviewed application controls over the PBIS established by FSIS to ensure
                  the confidentiality, integrity, and availability of information in that system.
                  The review was conducted at FSIS Headquarters in Washington, D.C., two
                  district offices, and ten processing establishments. District and processing
                  establishments were judgmentally selected based on the size of the
                  processing establishment, as reported by FSIS, and the type of processing
                  conducted.

                  Fieldwork was performed from January through May 2004.

                  To accomplish our audit objectives, we performed the following audit steps
                  and procedures:

                     •   We reviewed policies, procedures, and system documentation when
                         available relating to the PBIS system.

                     •   We interviewed FSIS officials responsible for the development,
                         management, and data input of the PBIS system.

                     •   We performed tests of data authorization, completeness, and accuracy
                         at selected district and processing facilities.

                     •   We analyzed system source code and data records to verify the
                         integrity of PBIS data.

                   This audit was performed in accordance with Government Auditing
                   Standards. The results of recently issued reports of FSIS’ inspection
                   activities and security of IT resources were considered in preparing this
                   report.




USDA/OIG-AUDIT/24501-1-FM                                                                Page 23
Exhibit A – PBIS Application Controls Matrix
                                                                                                                 Exhibit A – Page 1 of 2


                Control Objective
            (Based on U.S. General Accountability           PBIS Control
              Office Federal Information System
                    Control Audit Manual)                   Technique(s)19                         OIG Evaluation
                                                                                            •    PBIS is paperless and no input
                                                                                                 documents exist for subsequent
                                                                                                 validation or reconciliation.
                                                                                            •    Unlock codes are provided by
                                                                                                 the district office without
                                                                                                 justification.
                                                    •   Data entered by field inspectors.
                                                                                            •    Changes made to PBIS are
          All data are authorized before                                                         flagged as ‘confirmed’ by
                                                    •   Locked noncompliance report
          entering the application system.                                                       district office without basis to
                                                        records require an unlock code
                                                                                                 confirm the validity of the
                                                        by district office officials.
                                                                                                 change.
                                                                                            •    PBIS is programmed to accept,
                                                                                                 process, and report all changed
                                                                                                 records even if not flagged as
                                                                                                 ‘confirmed’ by the district
                                                                                                 office.
                                                    •   User IDs and passwords are
                                                        required on field, district, and
                                                                                            •    Field inspector’s computers
                                                        headquarters computers.
                                                                                                 were not always physically
                                                                                                 protected from unauthorized
                                                    •   User IDs and passwords are
                                                                                                 access.
                                                        required to gain access into
                                                                                            •    Not all password-protected
                                                        PBIS application and data
                                                                                                 screensavers were configured.
                                                        maintained on field inspector’s
                                                                                                 Some we tested were disabled,
                                                        computers.
                                                                                                 others allowed too much time to
                                                                                                 pass before locking the
                                                    •   Password-protected screensavers
                                                                                                 computer.
                                                        locked access to computers.
                                                                                            •    Password length, age, and
          Restrict data entry terminals to                                                       lockout duration were not set in
                                                    •   PBIS maintains records of all
          authorized users for authorized                                                        accordance with Department and
                                                        computers allowed to
          purposes.                                                                              NIST guidelines.
                                                        synchronize with the master
                                                                                            •    PBIS maintains a log of
                                                        database.
                                                                                                 computers that have
                                                                                                 synchronized their data with the
                                                    •   User IDs and passwords are
                                                                                                 master server.
                                                        needed to dial-up to central
                                                                                            •    PBIS user roles are broad in
                                                        PBIS server.
                                                                                                 nature and are not granular
                                                                                                 enough to control access based
                                                    •   Dial-up access to central server
                                                                                                 on job responsibilities. For
                                                        timed out after 10 minutes of
                                                                                                 instance, a district office
                                                        inactivity.
                                                                                                 secretary had the same privilege
                                                                                                 in PBIS as a district manager.
                                                    •   Users are limited access to PBIS
                                                        data based on one of six roles.
          Master files and exception reporting      •   PBIS was programmed to              •    FSIS was not timely removing
          help ensure all data processed are            synchronize with only registered         systems that had not
          authorized.                                   computer systems.                        synchronized within 45 days.


19
     PBIS control techniques as reported to us by FSIS officials. No system documentation existed outlining the controls established.
USDA/OIG-AUDIT/24501-1-FM                                                                                                           Page 24
Exhibit A – PBIS Application Controls Matrix
                                                                                                         Exhibit A – Page 2 of 2

                                                                                    •   Our testing disclosed that no
                                                                                        controls existed. FSIS relied on
    All authorized transactions (data) are
                                                                                        field inspectors to ensure that all
    entered into and processed by the        •   No controls established.
                                                                                        inspections performed and all
    computer.
                                                                                        noncompliance records were
                                                                                        timely entered into the system.
                                             •   FSIS Headquarters personnel
                                                 produced a report showing field
                                                 computers that had not             •   FSIS was not timely removing
                                                 synchronized with the master           systems that had not
    Reconciliations are performed to             database within 45 days.               synchronized within 45 days.
    verify data completeness.                •   FSIS Headquarters personnel        •   FSIS could not provide evidence
                                                 judgmentally removed field             that other reconciliation reports
                                                 computer’s ability to                  were performed.
                                                 synchronize (usually after
                                                 appearing on the 45 day list).
                                                                                    •   FSIS had not ensured that all
                                                                                        employees receive adequate
                                                                                        training. One inspector we
    Data entry design features contribute
                                             •   PBIS screens were user-friendly.       visited needed assistance from a
    to data accuracy.
                                                                                        field supervisor and district
                                                                                        office to enter a noncompliance
                                                                                        report.
                                                                                    •   PBIS system accepted records
                                                                                        that had been changed
                                                                                        regardless of whether the
    Data validation and editing are          •   PBIS data fields programmed to         “validated” field was checked.
    performed to identify erroneous data.        accept certain values.             •   PBIS users were not adequately
                                                                                        trained in what constitutes a
                                                                                        final and closed noncompliance
                                                                                        report.
                                                                                    •   FSIS had no programmed or
    Erroneous data are captured,
                                             •   No controls established.               manual controls in place to
    reported, investigated, and corrected.
                                                                                        identify erroneous data.
                                             •   FSIS Headquarters personnel        •   FSIS’ process for identifying
                                                 produced a report showing field        computers that do not
    Review of output reports helps
                                                 computers that had not                 synchronize within 45 days
    maintain data accuracy and validity.
                                                 synchronized with the master           impedes the timeliness of the
                                                 database within 45 days.               data.




USDA/OIG-AUDIT/24501-1-FM                                                                                                 Page 25
Exhibit B – Agency Response
                              Exhibit B – Page 1 of 6




USDA/OIG-AUDIT/24501-1-FM                               Page 26
Exhibit B – Agency Response
                              Exhibit B – Page 2 of 6




USDA/OIG-AUDIT/24501-1-FM                               Page 27
Exhibit B – Agency Response
                              Exhibit B – Page 3 of 6




USDA/OIG-AUDIT/24501-1-FM                Page 28
Exhibit B – Agency Response
                              Exhibit B – Page 4 of 6




USDA/OIG-AUDIT/24501-1-FM                Page 29
Exhibit B – Agency Response
                              Exhibit B – Page 5 of 6




USDA/OIG-AUDIT/24501-1-FM                Page 30
Exhibit B – Agency Response
                              Exhibit B – Page 6 of 6




USDA/OIG-AUDIT/24501-1-FM                 Page 31
